<html>
<title> - USDA'S USE OF CONSERVATION PROGRAM TECHNICAL SERVICE PROVIDERS</title>
<body><pre>[Senate Hearing 109-825]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-825
 
     USDA'S USE OF CONSERVATION PROGRAM TECHNICAL SERVICE PROVIDERS

=======================================================================


                                HEARING

                               before the

    SUBCOMMITTEE ON FORESTRY, CONSERVATION, AND RURAL REVITALIZATION

                                 of the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION


                               __________

                             JULY 27, 2006

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov




                    U.S. GOVERNMENT PRINTING OFFICE

30-432 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                   SAXBY CHAMBLISS, Georgia, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
JAMES M. TALENT, Missouri            BLANCHE L. LINCOLN, Arkansas
CRAIG THOMAS, Wyoming                DEBBIE A. STABENOW, Michigan
RICK SANTORUM, Pennsylvania          E. BENJAMIN NELSON, Nebraska
NORM COLEMAN, Minnesota              MARK DAYTON, Minnesota
MICHEAL D. CRAPO, Idaho              KEN SALAZAR, Colorado
CHARLES E. GRASSLEY, Iowa

            Martha Scott Poindexter, Majority Staff Director

                David L. Johnson, Majority Chief Counsel

              Vernie Hubert, Majority Deputy Chief Counsel

                      Robert E. Sturm, Chief Clerk

                Mark Halverson, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

USDA's Use of Conservation Program Technical Service Providers...     1

                              ----------                              

                         Thursday July 27, 2006
                    STATEMENTS PRESENTED BY SENATORS

Crapo, Hon. Mike, a U.S. Senator from the State of Idaho.........     1
Lincoln, Hon. Blanche L., a U.S. Senator from the State of 
  Arkansas.......................................................     6
                              ----------                              

                               WITNESSES
                                Panel I

Braasch, Sara....................................................     3

                                Panel II

Chapin, James....................................................    14
Goad, David......................................................    18
Schmidt, Gene....................................................    15
Wolf, Doug.......................................................    19
                              ----------                              

                                APPENDIX

Prepared Statements:
    Braasch, Sara................................................    32
    Chapin, James................................................    38
    Goad, David..................................................    41
    Schmidt, Gene................................................    45
    Wolf, Doug...................................................    50


     USDA'S USE OF CONSERVATION PROGRAM TECHNICAL SERVICE PROVIDERS

                              ----------                              


                        Thursday, July 27, 2006

                               U.S. Senate,
 Subcommittee on Forestry, Conservation, and Rural 
                                     Revitalization
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
Room SR-328A, Russell Senate Office Building, Hon. Mike Crapo, 
Chairman of the Subcommittee, presiding.
    Present or submitting a statement: Senators Crapo and 
Lincoln.

STATEMENT OF HON. MIKE CRAPO, A U.S. SENATOR FROM THE STATE OF 
                             IDAHO

    Senator Crapo. Good morning. This hearing will come to 
order.
    This is the hearing of the Agriculture Subcommittee on 
Forestry, Conservation and Rural Revitalization dealing with 
technical service providers. We welcome all of you hear today.
    The 2002 Farm Bill is one of the most important 
environmental laws that has ever been enacted in Congress. It 
has provided significant in agriculture, conservation programs 
and other critical things to America's environmental heritage. 
These programs provide substantial incentives for conservation 
on agriculture land that resulted in real environmental 
benefits.
    However, knowing how to achieve these benefits can require 
expertise that spans a wide range of scientific disciplines. 
Some of the issues producers address include water, soil, air 
quality, endangered species, crop nutrients, and pest 
management requirements, to name just a few. There is no 
question that America's farmers and ranchers are highly skilled 
individuals who are knowledgeable on many fronts. But the 
complex nature of these issues necessitates the availability of 
technical assistance to reach conservation goals.
    The soil conservation service was originally formed by 
Congress in 1935 to address the soil erosion concerns that 
arose during the Dust Bowl days and the agency became the 
expert in understanding and helping agricultural producers to 
apply the science required to solve erosion problems. But in 
1994 the agency's name changed from the Soil Conservation 
Service to the Natural Resources Conservation Service in 
recognition of the public's interest in insuring farmers and 
ranchers get the assistance they need to address the wider 
range of environmental issues.
    This, along with the increasing numbers of retirements and 
initiatives to right-size Federal agencies began to stretch the 
technical capacity of the agency to address all issues 
associated with soil, water, air, plants, and animals. Then, in 
2002, in the Farm Bill, a number of new conservation programs 
were authorized and the funding for conservation programs 
overall was substantially increased.
    The NRCS staffing levels were not sufficient to provide the 
amount of technical assistance required to implement the Farm 
Bill conservation programs, so Congress authorized the use of 
non-Federal technical service providers to fill the gap. We 
want to be sure that America's farmers and ranchers are able to 
obtain the technical advice they need to protect and restore 
the quality of their natural resources.
    This hearing provides an opportunity to review the use of 
technical service providers. We need to take stock of how the 
availability of the technical service advisors is working for 
agricultural producers. For technical service providers and for 
the USDA.
    First we are going to hear from Ms. Sara Braasch, who is 
the regional assistant chief for the west region of the 
Department of Agriculture's Natural Resources Conservation 
Service, and a good friend.
    Welcome, Sara.
    Following her testimony we will hear from a number of 
people who have experience with how the TSP is working.
    Mr. James Chapin--did I get that right?
    Mr. Chapin.  Chapin.
    Senator Crapo. Chapin, Sorry.
    He is the director for the western region of the 
Association of Consulting Foresters, which is an organization 
that represents consulting foresters, many of whom have been 
certified by NRCS to provide technical forestry expertise 
needed to address natural resource issues on private lands, and 
on other agricultural operations that take advantage of the 
interactive benefits of combining trees and shrubs with crops 
or livestock.
    Mr. James Schmidt is a member of the executive board of the 
National Association of Conservation Districts. The NACD 
membership is composed of conservation districts, which are 
non-Federal Government entities that help control the use of 
land and water within a State or territory.
    Conservation districts have been in the business of 
technical services to landowners and operators and coordinating 
private sector services for more than 40 years. So, they are 
able to offer a unique perspective about how well the TSP 
process is working.
    Mr. David Goad is the deputy director of the Arkansas Game 
and Fish Commission in Little Rock, Arkansas. I understand that 
the Fish and Game Commission had a memorandum of understanding 
with NRCS enabling it to provide fish and wildlife expertise as 
a TSP. I look forward to hearing more about this MLU process 
and what kind of benefits the agency considered the MLU to 
provide benefits to them and to landowners or to the NRCS.
    Mr. Doug Wolf, who is a member of the board of directors of 
the National Pork Producers Council, is from Lancaster, 
Wisconsin. He has actually engaged the services of a TSP to 
assist in livestock operations. He has also benefited from NRCS 
technical assistance and therefore is able to offer us insights 
into any differences there may have been in these experiences.
    I appreciate each of our witnesses being here today, and I 
look forward to hearing your thoughts about how well the third 
party technical service provider process is working. I would 
just like to remind all the witnesses that we have encouraged 
you to keep your comments to the five minutes that have been 
allocated, if possible.
    If you are like me, your five minutes runs up before what 
you have to say runs out. So, please keep an eye on the clock. 
The reason for that is because we like to get into questions 
and discussion and anything you may not get out in your initial 
presentation I am sure you will have an opportunity to say 
during the dialogue that we have as we discuss matters.
    And with that, why don't we proceed? Sara, please go ahead.

   STATEMENT OF SARA BRAASCH, REGIONAL ASSISTANT CHIEF, USDA 
             NATURAL RESOURCES CONSERVATION SERVICE

    Ms. Braasch. Thank you so much, Mr. Chairman.
    As you know on a personal note, it was ten years ago that I 
served as a staff member of this Subcommittee, so it really is 
a pleasure for me to be back and to see the tremendous progress 
that you have made as a Subcommittee, and under your capable 
leadership on conservation, especially the technical service 
providers.
    Senator Crapo. Well, we welcome you here.
    Ms. Braasch. Thank you.
    Even though I work with the 13 western States, I am here on 
behalf of our chief, Bruce Knight, to talk, nationwide, about 
the progress we have made on the technical assistance 
provisions of the 2002 Farm Bill.
    As you know, and stated in your opening, it was designed to 
insure that, as a department, we have the capacity to address 
the significantly increased workload associated with 
implementing the most recent Farm Bill. In the last four years, 
Mr. Chairman, we have had tremendous success working with more 
than 2,100 technical service providers, obligating over $163 
million, and providing over 1 million hours of technical 
assistance to farmers and ranchers through private individuals, 
State government agencies, and non-government organizations.
    These technical service providers, or TSPs, allow us to add 
capacity to our workforce in a very flexible manner. They 
enable us to have the right people in the right place at the 
right time. That enables us to provide a broad range of 
technical services that insure that we meet our mission of 
helping people help the land.
    Since 2002, the total investment, as you know, under the 
Farm Bill conservation programs has been more than $9.4 
billion, and with all of those funds we have provided 
assistance to 1 million farmers and ranchers. This historic 
level of conservation funding has increased the need for 
technical information and advice beyond our capacity in the 
Federal workforce. It is critical to us that our customers 
receive the best technical advice available.
    NRCS has addressed this demand for technical advice through 
a combination of three methods. First, producer-selected TSPs, 
second, agency-selected TSPs, and third, the agricultural 
conservation experienced seniors initiative, or ACES, for 
short. I will touch on each of those three in detail.
    In the first case, if the farmer or rancher, he or she can 
select and hire an individual certified TSP to help them plan 
and apply conservation work on their operation. NRCS then 
enters into a contract with the producer. The producer works 
with the TSP and then reimburses that TSP.
    The individual farmer or rancher can locate a certified TSP 
from our internet-based system called TechReg. It is a very 
convenient way for producers to find who is certified to help 
them meet their conservation goals.
    I am thrilled, Mr. Chairman, that at the end of last month, 
NRCS had over 2,100 individuals and more than 200 businesses 
nationwide certified as TSPs on TechReg. An additional 150 
applications are pending review and certification.
    In the Magic Valley area of our home State in Idaho, an 
example is a farmer contracted with a private sector TSP to 
design and implement an irrigation system on his land as part 
of an EQIP contract. The producer received immediate help from 
that private sector TSP. The project was funded, constructed, 
and certified to our standards and specifications as an agency, 
and it was done, quite honestly, in a much quicker fashion than 
we would have been able to do if our own permanent full-time 
staff were assigned to the project.
    The second example is the agency-selected TSP. And that, 
again, is when NRCS obtains technical support directly through 
a procurement contract, a contribution agreement, or other 
appropriate instruments which are typically with private sector 
businesses, a State agency, or an NGO.
    These agreements deliver very technical projects. In 
Montana, we worked with a private sector TSP firm to work on 
threatened and endangered species. Bundled practices for Bull 
Trout, Cutthroat Trout.
    Another form is when we leverage money from outside groups 
for specific projects. In Vermont, we worked with the State 
Department of Agriculture in the conservation districts to 
establish land treatment planners.
    And finally, I want to touch on the ACES initiative. This 
is a cost effective pilot that we have used to bring 
experienced older workers, such as retired employees, into our 
cadre of providers. So far, nearly $1.9 million has been 
obligated for this initiative, supporting 148 staff positions 
just since the project began last year. The ACES project was so 
successful in filling that gap in the Federal workforce, that 
the Secretary has sent a proposal to Congress to broaden the 
authority and statute for that service.
    So, in conclusion, Mr. Chairman, the TSP provisions of the 
2002 Farm Bill have helped NRCS be very flexible in adding 
capacity when our program workload increases, and, at the same 
time, in decreasing our services when tight budgets that you 
referred to necessitate that. We recognize that the future 
workload could be significant for conservation. We will 
continue to seek third party sources to compliment our existing 
resources and to meet any increased demand.
    So with that, Mr. Chairman, again, I am pleased with the 
opportunity to be here and I would be glad to respond to any 
questions that you might have.
    [The prepared statement of Ms. Braasch can be found on page 
32 in the appendix.]
    Senator Crapo. Well, again, thank you very much, Sara, for 
being here. I appreciate the chance to see you again. We have 
had a lot of opportunities to work closely with you over the 
years and I know that you do great work.
    The first question that I have is, I noted in your 
testimony that you indicated that we have 2100 certified TSPs 
nationwide and another 150 on the way, if I understand that 
right.
    Ms. Braasch. Correct.
    Senator Crapo. That is very positive, but in the entire 
State of Idaho, there are only two TSPs identified in TechReg 
as certified conservation planners. And one of those 
individuals lives in New York. The other lives in Utah.
    At the same time, conservation planning of one sort or 
another is necessary before a producer can participate in any 
USDA conservation program. And, in addition, there are no 
certified fisheries TSPs in all of Idaho, yet fisheries are a 
critical resource, as you know, in the State.
    So, no doubt Idaho is not the only State that has this type 
of a circumstance. And because of that, the question I have is 
how is the NRCS able to meet the technical assistant workload 
associated with delivering conservation programs if we do not 
have enough employees and if we do not have enough TSPs 
certified in some of these needed categories?
    Ms. Braasch. Excellent question, Mr. Chairman.
    And it has a couple of parts to it, so if you will indulge, 
I would like to talk through the conservation planning piece of 
that.
    Senator Crapo. Sure.
    Ms. Braasch. And the two individuals you mention. Then, at 
the same time, the fisheries example and what is happening.
    To put that in context, though, the certified planners that 
you referred to--TechReg is not an exclusive list of who is an 
agency work with when it comes to TSPs. TechReg only lists the 
individuals that want to work with producer-selected TSPs.
    Senator Crapo. Okay.
    Ms. Braasch. So, in that example--but I want to follow it 
through because it is very important.
    On the conservation planning side, we have 42 practices in 
TechReg that an individual could be certified in. One of them 
is conservation planning. As you know, that is the heart of 
what we do as an agency. There are nine steps to the planning 
process. It is a very thorough process, and it is also very 
fluid, quite honestly. It is not something that a farmer or 
rancher would do once and then sit on the shelf and leave to 
collect dust. It is something they do; they typically like to 
work with us. They come back the next year, the year after, to 
make changes.
    So, what we have seen, in a series of required forums by 
our chief and every State across the nation is we have seen and 
heard feedback from TSPs, but their primary interest is not in 
doing the broad, nine-step planning for us. It is in doing the 
more specific practice based examples; cultural resources, 
fisheries, forestry.
    So, we do have a limited number of certified planners, but 
I think, in my discussion, there is a reason for that. It is 
something, quite honestly, we need to keep working on. We are 
committed to the individuals that want to do planning for us 
through TSP.
    To make that a little easier, we have put all of our 
training online. So, any TSP that wanted to become an expert in 
planning and the requirements could do it online. We also have 
a number of agreements with other agencies where we take their 
certification. So, we are working on it.
    Specific to the fisheries example, as I was actually 
surprised as I thought through that, because I do know that 
outside of the producer-selected work on fish populations, 
which are so important in Idaho, we do a lot of agency-selected 
TSP work.
    For instance, Idaho Fish and Game Commission, we have an 
agreement with them where they provide the expertise because 
they have got the biologists across the State. So, they work 
with us as needed on specific projects. We even have space in 
our offices now that three of their biologists are co-located 
in a USDA service center.
    A private sector example of fisheries that you would be 
interested in, inter-mountain aquatics. We work with them--
again, agency-selected--to go out where needed to do fisheries 
work.
    So, I appreciate your question. Quite honestly, I am hoping 
our discussion today will prompt a little more interest, not 
only in Idaho and Arkansas, but across the country with 
potential TSPs.
    Senator Crapo. Thank you very much for that answer.
    I am going to interrupt my questions right now. We have 
been joined by Senator Blanche Lincoln.
    Blanche, would you like to make an opening statement of any 
kind? You are welcome to do so. If you want I will go on with 
my questions, or you can start some questions of your own.

 STATEMENT OF SENATOR BLANCHE L. LINCOLN, A U.S. SENATOR FROM 
                     THE STATE OF ARKANSAS

    Senator Lincoln. Well, thank you, Mr. Chairman. I do 
apologize for running a bit late this morning.
    I am so grateful to Chairman Crapo. He has been a 
delightful friend and colleague to work with and I thank you 
for your leadership in this Subcommittee, and particularly for 
holding this hearing today.
    Senator Crapo and I came to the House together and then we 
came to the Senate together, and we have kind of been attached 
at the hip for a while. He is great to work with.
    Senator Crapo. If everybody else just worked as well as we 
did together----
    Senator Lincoln. Well, I appreciate your patience this 
morning, for sure.
    And we have so many of the same interests, particularly in 
the collaborative conservation efforts that we are looking at 
today. It is always a pleasure to work with you, as well as 
your extremely capable staff. I have to give them a plug, too, 
because they are wonderful to work with.
    I would also like to take just a few moments here and 
welcome a fellow Arkansan to the Subcommittee. Mr. Goad, who is 
the deputy director of the Arkansas Game and Fish Commission.
    David, I appreciate you taking time to travel here to 
Washington and look forward to your testimony during the second 
panel this morning.
    For many reasons, I guess, I take a tremendous pride in the 
2002 Farm Bill. It is a bill that I worked hard on and I 
supported because of its importance to my State's rural economy 
and our way of life. And indeed, one of the most notable parts 
of the legislation was its historic increase in conservation.
    As a member of a seventh generation farm family that enjoys 
hunting, fishing, and other outdoor activities, I know well the 
importance of conservation programs. My dad was rice farmer in 
east Arkansas, and I never knew a greater conservationist than 
someone who not only depended on the land for his livelihood, 
but wanted to insure that future generations of our family 
would be able to do so, as well. Not to mention the fact that 
his favorite thing to do was to duck hunt and turkey hunt.
    So, making sure that the land was well cared for--having 
just picked up my children from spending three weeks in the 
woods with no plumbing and no electricity, I realize the 
excitement and, really, the heritage that my family, and 
particularly my children, now enjoy in the conservation areas 
that they enjoy, being out in the woods and being able to enjoy 
what we have here and what we have been able to preserve.
    So, I also know that the agricultural producers of Arkansas 
are enormously excited and embracing in terms of the 
conservation programs. They are not only an environmentally 
sound practice, our conservation programs, but they produce a 
wide range of economic benefits, and we are grateful for that.
    Environmentally, our conservation programs obviously 
safeguard millions of acres of American topsoil from erosion 
while improving air quality and increasing wildlife habitat, 
protecting ground and surface water quality by reducing water 
runoff and sedimentation.
    Economically, the benefits are immeasurable. These programs 
not only increase our net farm income, they preserve soil 
productivity. They improve surface water quality. They reduce 
damage from windblown dust and increased uses of wildlife. 
Obviously, in Arkansas, they enhance the tremendous tourism and 
economics that we glean from the environment and being the 
Natural State.
    These dual benefits are critical to the long-term 
sustainability, I think, of American agriculture, and they 
provide the much needed bridge between an adequate farm safety 
net and the resources necessary to conserve our land.
    So, today's hearing looks, I think, at the critical role 
that third party service providers can play in helping our 
farmers and our landowners reach these conservation goals. And 
I think if there is one thing that Senator Crapo and I have 
really worked hard at, that is to make sure that we can get all 
of the interested parties involved in whatever it is we are 
trying to do here because we know that we do not have all the 
answers. And we know that certainly we cannot do all of the 
lifting here in Washington alone.
    It is with the involvement of landowners and State agencies 
and other groups that are out there that we really achieve our 
common goal. That is why I am delighted to hear from these 
third parties.
    I want to thank our witnesses for being here today, and I 
look forward to their testimony. I will let the Chairman finish 
his questions, and then I may have a few.
    Thank you, Mr. Chairman.
    Senator Crapo. Thank you very much, Blanche.
    And I want to return the compliment to you. We have had a 
tremendous time together in Congress. I really meant it when I 
said earlier that if everybody else got along together like you 
and I do, we would have a much better--I think the public would 
have a better perception of Congress and we would probably get 
a lot more done.
    You and I worked very closely together on the current 
conservation title of the Farm Bill, and many other things, as 
well. I appreciate the friendship and the working relationship 
that we have.
    Sara, let me go back to the line of questioning I was 
pursuing. Actually, this next question is probably a little bit 
answered by your answer to the first question, but I want to 
indicate that one of the main TSP conservation planners was 
from New York who serves Idaho constituents. The question comes 
up, if that situation repeats itself a lot, the question I have 
is whether the providers, who are at a distance from the 
constituents--the producers they are providing service to--are 
able to adequately make a profit and conduct a viable business 
when they have that kind of distance to travel.
    Now, maybe, as a result of your earlier answer, it is 
really not a situation that occurs that often, but could you 
address that?
    Ms. Braasch. Thank you, Mr. Chairman. I would be glad to.
    I have to admit, I am not familiar with the individual from 
New York. But I do have a couple of examples that I think might 
be helpful. The first one, as you know, in the 2002 Farm Bill, 
Congress very clearly and rightfully so, directed us to insure 
that these third party providers have the expertise, and to 
certify. So, when one of your constituents requests their help, 
they know they are getting good quality technical assistances. 
So, in doing that, we cannot, and do not want, to control who 
might offer up their services. We just want to be sure that 
they are qualified.
    I can tell you an example that I saw recently in New 
Mexico, was a very small engineering firm, only three people. 
Their business address was in California, because that was the 
first engineer that started work. Then he found two partners, 
one in eastern Oregon that services part of Idaho, and another 
one doing work in the Southwest. So, for business purposes, 
they were organized with a California address, even though they 
had staff closer to the dairies, in this case, in New Mexico, 
that wanted some TSP assistance. So, there could be any number 
of reasons, when you look at addresses and locations.
    Now, specific to your point of travel, I should be very 
clear. NTE rates, not to exceed rates--we found out in those 
forums that I described in listening to TSPs and producers, 
there is a little bit of confusion on those. What we do with 
NTE rates is we establish the cost the government would have if 
we provided that same service to a producer. And then we use 
that as the basis for what we will reimburse the producer. 
Okay? If they are finding service somewhere else, we will pay 
them what it would have cost us. That does not preclude the 
producer from paying more for the private individual if he or 
she so chooses, for that expertise.
    So, in that case, the profit motive that you mention of an 
individual, travel cost, those could be factored in if the 
producer decided to go above and beyond the cost to the 
government for those services.
    Senator Crapo. All right. Thank you.
    My next question, in fact, was how do you determine the NTE 
rates. So, you have already answered that.
    That raises a question for me, though. If the government is 
paying exactly what it would cost the government to provide the 
service itself--we are getting the private sector services, 
which I think is very helpful, but it is not a budget savings. 
Would that be a correct conclusion to reach?
    Ms. Braasch. Thank you, Mr. Chairman.
    It is an interesting example. And, if I could--the last 
question about producer-selected TSPs--if we could switch to 
the agency-selected TSPs, I think that is an example that 
answers your question of, what is the benefit to the 
government, and all of us as taxpayers.
    In that example, we have a number of positive examples of 
how this has helped the agency. As you mentioned in your 
opening statement, all of the Federal workforce is facing a 
retirement bulge. At NRCS, it will be about 34 percent of our 
workforce that could retire in the five-year period we are in 
right now.
    So, one, to make that transition, to figure out how to 
provide expertise, we have to think creative. While we are 
training--if we cannot afford to hire new employees, we have to 
train them. In some cases, it might not make sense for one-time 
work to hire a fulltime Federal employee. In those situations, 
animal feeding operations are a good example. We have a short-
term workload based on the EPA regulations for animal feeding 
operations. In a lot of the States I work with, we are better 
off to hire private sector engineering expertise on a one-time 
basis to get those animal feeding operations the help they need 
to come into compliance than to staff up on the Federal side 
and add to our workforce long-term when we may or may not be 
able to pay for it.
    So, there are savings on the government side. And I was 
thrilled in visiting with the pork producers that they are 
going to go into more detail on both those examples of how we 
work with animal operations.
    Senator Crapo. All right. Thank you.
    I understand that there is a bit of a lack of understanding 
as to how properly price a comprehensive nutrient management 
plan. I think one of our witnesses is going to talk a little 
about that. Since that is an issue in a number of circumstances 
across the country, is NRCS working to establish a not to 
exceed rate for CNMPs? What is being done with regard to trying 
to remedy that situation?
    Ms. Braasch. Thank you, Mr. Chairman.
    We actually do have a CNMP NTE rate in every county across 
the country. Now, that is based on, again, our costs as an 
agency if our employees were to do that work. We look at that 
every year.
    An example from the state of Iowa that I think was very 
creative and very appropriate, is they look at the CNMP rates 
in counties in Iowa, in terms of what it would cost the 
government. They came to us through NRCS and our State 
technical committee and they came up with a better way to 
approach that, because, quite honestly, our NTE rates in those 
counties were too low when we looked at what the private sector 
could provide the service for. But at the same time when we 
look at, as a government, if we contracted with an engineering 
firm through the Brooks Act, it would be much higher.
    So, in Iowa, they came up with a proposal and we gave them 
a waiver at the national level to classify animal feeding 
operations by size, which is a good indicator of the cost to do 
a CNMP. We approved the waiver. They have implemented that 
system. And what we are looking at now, quite honestly, is how 
we use that Iowa example of streamlining, being consistent with 
the workload, the cost, and the resource benefit, and ways that 
we can implement that nationwide and be sure all States have 
the flexibility.
    Senator Crapo. All right. Thank you very much.
    I have a few more questions, but I will toss it over to 
you, Blanche, if you want to ask a few questions, and then we 
can go back and forth.
    Senator Lincoln. Thank you, Mr. Chairman.
    Ms. Braasch; is that correct?
    Ms. Braasch. Perfect. Thank you.
    Senator Lincoln. Well, to follow up on that last one, you 
talked about the pork producers. I know that Mr. Wolf, who is 
going to testify today, also, on behalf of the pork producers. 
He points out in his testimony that the new approach to the 
contract delivery, where the farmers contract directly with the 
TSP, it has significant merit, as you mentioned.
    And yet many farmers find that what is required of them, in 
terms of paperwork, the paperwork, the management oversight is 
so great that they are less inclined to take part in the 
program. Is that I concern that you are aware of on the 
national level? And, if so, is NRCS taking steps to make the 
farmers' choice approach less burdensome to individual 
producers and insuring that they actually have access? I know 
that for some of our farmers finding those types of consultants 
is obviously a cost that is borne by the producer and sometimes 
difficult to find in other areas.
    Ms. Braasch. Excellent question.
    It is interesting, because when you look nationally at our 
statistics and the work that we do through technical service 
providers, there is a large number of contracts that are 
producer-acquired. States like Wisconsin, quite honestly, in 
the pork example, have been tremendous partners. They did not 
make that happen overnight, in all honesty.
    As I have learned from Wisconsin, quite honestly, for my 
use out West, they actually started that process in the late 
1980s of working together with our agency, with livestock 
groups, with the State, and have put in a lot of good work to 
get to that point.
    Now, specific to the paperwork, we have heard that in the 
forums I have mentioned, from producers. That, for some 
producers and TSPs it can be burdensome. It is something we are 
looking at in our efforts to streamline, but we are trying to 
find that balance of guaranteeing the Federal investment and 
that there is a return on it and that we are accountable for 
the funds with the balance of streamlining and making it easy.
    Senator Lincoln. Well, I think that is something that we 
definitely have to take into consideration. Because, if we do 
want to farm out that duty, you are right. It needs to be 
efficient and effective, but it still has to bring the results 
that we are going to be held accountable for.
    I am also pleased that, as I mentioned, Mr. Goad, who is 
the deputy director of Arkansas Game and Fish is going to be 
with us today to testify as part of the second panel.
    In his testimony, he makes observation that it would be 
helpful for State fish and wildlife agencies to be allowed to 
enter into three to five-year TSP agreements so that they can 
go and secure the additional positions and funding necessary 
from their State legislatures.
    Is that something that NRCS could do, or is considering?
    Ms. Braasch. Excellent question.
    What we have had to do in the agency with these agreements 
is they are typically funded through one of our programs. So, 
in the case of Arkansas Game and Fish or Idaho Fish and Game, 
it is the wildlife habitat incentives program.
    As you know, you appropriate that program to us in an 
annual appropriation. So, because it is annual funds, we cannot 
commit to a multi-year agreement.
    What we have done, though, in a number of situations--and I 
had the chance to visit with the fine gentleman before the 
hearing--in other States is we have looked at a clause where 
the agreement can be extended based on mutual agreement and 
contingent on continuing annual appropriations. What I have 
seen in the West is our State agencies are appreciative of that 
clause because they are in a similar situation with State 
legislatures when it comes to annual funds and multi-year 
agreements.
    So, I think there are some things, creatively, we can look 
it. And, quite honestly, we need to. Wildlife is a priority for 
our agency, but it is also an area where we do not have the 
depth and, quite honestly, cannot afford to hire the depth of 
field-level positions to do that work. So, we need the help of 
outside groups and partners in order to meet that resource 
need.
    Senator Lincoln. Well, we are continually looking for the 
dollars up here, too, to redirect towards the State side of 
land and water conservation, fish and wildlife--I mean, all of 
those different agencies that do a tremendous job in our States 
and need the resources.
    It seems like some of the actions that you have taken 
really do address that, in terms of establishing an 
understanding that they can continue practices, provided the 
resources are there. Our States are also limited in the 
resources they can appropriate, but will do so. It is kind of a 
Catch-22. One of us will spook the other one out, I guess, and 
actually commit the dollars.
    Ms. Braasch. Well, Mr. Chairman, as a follow-up, if I may?
    It is interesting when I look at the summary, nationally, 
of how we spend technical service provider money, two-thirds of 
that goes to the private sector, which makes sense, whether it 
is engineering or other consultants.
    But the next largest category is State government, and that 
is about 16 percent, because they are invaluable partners. And 
then, following that are soil and water conservation districts.
    So, we really appreciate all those partners and, again, 
could not deliver conservation on the ground without them.
    Senator Lincoln. Well, Mr. Goad, as you will see in his 
testimony that the 1996 Farm Bill was the first to designate 
wildlife habitat as co-equal status with soil and water 
conservation as a goal for producers. It was a priority that 
was continued when we did the 2002 Farm Bill.
    Do you have the necessary wildlife biologists on staff, do 
you think, at NRCS, to adequately consider and implement those 
wildlife considerations in the conservation plans with 
agricultural producers? Is that something that--I know that 
there are outside consultants, and certainly resources are 
dedicated to the private sector? But, I mean, do you feel like, 
at NRCS, you have the sufficient biologists on hand?
    Ms. Braasch. Senator Lincoln, excellent question.
    And it really gets to the heart of the matter of human 
capital. As a Federal agency, and part of the larger Federal 
Government, what critical disciplines do we have on staff based 
on our available funds?
    Wildlife is a fascinating example to me because we do need 
a core expertise of wildlife experts. So, at a national level, 
a State office level, especially, we have the expertise in 
house to provide guidance, to be sure the quality is as high as 
it should be. But then, beyond that, when you look at the 
projects, I have seen tremendous gains.
    And, again, working with a lot of State fish and game 
departments, because they have the staff level dispersed 
throughout a State that we can tap as needed with specific 
projects.
    That comes back to what I talked about in my opening, 
having the right people in the right place at the right time, 
whether or not they are permanent employees. It is a matter of 
getting the product we need to the producers we serve.
    So I think, on balance, if we utilize the provisions of 
TSPs, again, through producers and agency selection along with 
our core cadre, we can meet those needs. But it is a constant 
management challenge, quite honestly.
    Senator Lincoln. Thank you, Mr. Chairman.
    Senator Crapo. Thank you.
    Just another couple of questions that I have, Sara.
    And then if you have any more, Blanche, we would be glad to 
go ahead with them.
    When the NRCS contracts directly with TSPs, is this done at 
the NTE rate, or is that rate ever exceeded? Could you just 
discuss with me, a little bit, the process that is handled at 
that point, when the NRCS is directly contracting with TSPs?
    Ms. Braasch. Absolutely, Mr. Chairman.
    I have to admit that when I worked for the Committee ten 
years ago I was very excited by the concept--and probably 
thought of it in very simple terms in my younger years. So, it 
has been fascinating to come back to the agency and learn the 
details of how we make this work.
    There is one key detail I want to share with you to put it 
in perspective. Again, the not to exceed rates reflect our cost 
as an agency to do the job, and we use those as the baseline 
when a producer selects a TSP.
    Now, in your question, I think what you are asking about, 
whether it is producer-selected or agency-selected, do we ever 
exceed those rates?
    Senator Crapo. Yes.
    Ms. Braasch. The answer is yes, for a number of reasons.
    The Iowa example I gave you, we exceeded the initial NTE 
rate going through a thorough review and a process to look--is 
it an accurate reflection of the workload and the time 
involved.
    In other examples, and this was where, in my mind, it was 
fascinating to learn about the Brooks Act, which applies to all 
Federal procurement of architectural and engineering services. 
In those cases, with engineering, for the Brooks Act, we look 
at qualifications, first of an outside firm, cost, second.
    As you can imagine, a number of our practices involve 
engineering assistance. So, per Federal law, we first look at 
the qualifications of the people who apply, who submit to the 
RFP. Once we know who is most qualified, we then negotiate the 
rate, which, in some cases, can and does exceed that NTE.
    Senator Crapo. All right. Thank you.
    Now, I am aware that, in general, when contract 
modifications are made, there is also an adjustment in cost. 
Can you explain how that is handled?
    Ms. Braasch. Mr. Chairman, in all of our work, quite 
honestly, whether it is TSP or an EQIP contract, we do see cost 
fluctuations.
    As you know, from working with your constituents, fuel 
prices, right now, have had an impact on any number of parts of 
our economy. Specific to NRCS and agriculture, that means 
irrigation systems. Sprinklers, pipe line, costs can increase 
after the contract is signed.
    We do have a process to look at those costs, whether it was 
an error of omission on our part, or a reflection of the 
marketplace, and to go in to modify a contract. I have seen, 
specific to TSPs, modifications that go both up and down from 
the original cost.
    Senator Crapo. I was going to ask if they ever went down.
    Ms. Braasch. Which, you can imagine, has mixed reactions to 
the people who we work with.
    Senator Crapo. I would bet so.
    That concludes my questions.
    Blanche, do you have any more?
    Senator Lincoln. No. Thank you, Mr. Chairman.
    Senator Crapo. All right.
    Well, Sara, thank you very much for coming. You are 
obviously very well prepared and understand this program. I 
think it sounds like you and the USDA are an advocate of the 
program.
    Ms. Braasch. Thank you, Mr. Chairman.
    Senator Crapo. Thank you.
    I would like to call our second panel at this point. I will 
identify them again.
    First, is Mr. James Chapin, of Reading, California, who is 
the director of the western region of the Association of 
Consulting Foresters.
    Second is Gene Schmidt, a member of the board of directors 
of the National Association of Conservation Districts.
    Mr. David Goad, who is the deputy director of the Arkansas 
Game and Fish--you know, in Arkansas, it is the Game and Fish 
Commission and in Idaho it is the Fish and Game Commission. It 
throws me off every time.
    And Mr. Doug Wolf, who is of Lancaster, Wisconsin, a member 
of the board of directors for the National Pork Producers 
Council.
    Gentlemen, we welcome you all. I again remind you to try 
and pay attention to that clock so that we will have time for 
our questions with. We will start out in the order that I 
introduced you.

     STATEMENT OF JAMES CHAPIN, DIRECTOR, WESTERN REGION, 
         ASSOCIATION OF CONSULTING FORESTERS OF AMERICA

    Mr. Chapin. Mr. Chairman, My name is Jim Chapin. Thank you 
for the opportunity to address your Committee.
    First, I would like to start out with talking a little bit 
about the organization that I represent. I am on the board of 
directors for the Association of Consulting Foresters of 
America, which is an organization of consulting foresters 
throughout the United States that represents consulting 
foresters that work strictly for private landowners. They do 
not represent a procurement industry. They represent private 
landowners in managing their forest lands.
    Thank you for the opportunity to be here and address you. A 
little about myself, I am a consulting forester in California. 
I had the pleasure, Mr. Chairman, of spending three years of my 
life going to the University of Idaho in northern Idaho. 
Probably three of the best years of my life. I still have a lot 
of good friends in northern Idaho.
    I spent the first 20 years of my career working for the 
U.S. Forest Service, and the last 25 years have been as a 
private consulting forester. So I have been on both sides of 
the fence.
    Senator Crapo. Well, I am glad you got your initial 
training there in Idaho, where they have the best school in the 
country.
    Mr. Chapin. I agree with you. I am glad I did, too. It was 
a great experience and it has been good for career. I still 
enjoy going back to visit.
    Senator Crapo. Thank you.
    Mr. Chapin. What my comments are going to be based on is my 
experience as a consulting forester in northern California 
working with NRCS on conservation programs, primarily the EQIP 
program, environmental quality improvement program.
    Besides being a consulting forester, I also own 82 acres of 
forest land, myself and I am currently enrolled in the EQIP 
program. So, have about five different conservation practices 
that I am doing on my property under the EQIP program.
    We, as an association, and myself, personally, we really 
support the conservation programs under the Farm Bill. The EQIP 
program is being used quite a lot in Northern California on 
ranch lands and forest lands.
    As you probably know, at least in the west, and probably in 
the east, too, most farm lands and ranch lands also have forest 
lands incorporated on their property. So, we feel that the 
forestry part of the Farm Bill, and wildlife, also, is very 
important to include forest management and wildlife habitat and 
improvement. We support the program and we also support the 
technical service providers part of it.
    However, my experience in northern California is it is not 
working as well as it could. I spoke recently with the local 
conservationists for NRCS in my area and they have very few 
consulting foresters who have signed up for the technical 
service provider program under the TechReg procedure. I, 
personally, started to sign up about a year ago, and when I saw 
the cumbersome process that it took on the computer and what 
the cap rates were, I just decided that it was not worth my 
time. I had other things to do. I think that is unfortunate.
    In northern California, Association of Consulting Foresters 
has 40 members who are consulting foresters. There are probably 
several hundred registered professional foresters in California 
who would be qualified and available to do this kind of work. 
But, as far as I know, there are none, or very few, that are 
actually doing it.
    The reasons are probably twofold. One is the not to exceed 
rates are not competitive with forests compared to work that we 
do for private landowners and other agencies. Another reason is 
the NRCS offices are still doing a lot of the work themselves. 
I found out recently that if a landowner comes into an NRCS 
Office and asks to apply for an EQIP program, unless they 
specifically ask to have a technical service provider included 
in the project description then it is not done, and it is not 
even mentioned. So, they have to somehow know through written 
description, or going on the internet, or something that the 
opportunity is there.
    Another reason is they have to pay the cost of the 
consulting forester upfront and then they are reimbursed by the 
agency, and a lot of times they do not like to spend that money 
upfront.
    So, I think it is a great program. I feel that there are a 
lot of professional foresters out there that could provide 
valuable services. But it is not being utilized as good as it 
could be.
    Thank you for the opportunity to address you. Are there any 
questions?
    [The prepared statement of Mr. Chapin can be found on page 
38 in the appendix.]
    Senator Crapo. Thank you very much, Mr. Chapin. We will 
hold our questions until the entire panel has given their 
testimony.
    Mr.Schmidt.

  STATEMENT OF GENE SCHMIDT, EXECUTIVE BOARD MEMBER, NATIONAL 
             ASSOCIATION OF CONSERVATION DISTRICTS

    Mr. Schmidt. Thank you, Mr. Chairman, and Committee member.
    Good morning, I am Gene Schmidt, and I am a farmer from 
northwest Indiana and I farm 1,600 acres of seed corn and see 
soy beans, 120 acres of wheat, and about 900 acres of that is 
irrigated.
    I serve on the executive board as the Chairman announced in 
the introduction, and I serve on the local soil and water 
conservation board in Laporte in northwest Indiana.
    A cross the United States, nearly 3,000 conservation 
districts are helping local people to conserve land, water, 
forests, and wildlife, and related natural resources. We share 
a single mission, to coordinate the assistance from all 
available sources, be it public, private, local, State, and 
Federal, in an effort to develop locally driven solutions to 
the national resource concerns in the air.
    Each day, conservation districts see the demand for 
technical assistance to apply conservation practices to the 
land, both through the Federal Farm Bill programs and through 
conservational technical assistance.
    NACD, the National Associations of Conservation Districts 
strongly believes that the use of third party public private 
sector technical assistance to help implement conservation 
programs should be seen as a complement and a supplement, not a 
replacement of the existing delivery system.
    Conservation districts have been a partner in the Federal, 
State, and local conservation delivery system for almost 60 
years. Conservation district participation under the TSP 
initiative is through individual competition agreements where 
districts operate under a 50/50 match between NRCS and her 
State conservation agency, State associations or the individual 
districts themselves.
    These agreements identify certain dollar figures, hours, 
and/or persons to assist in delivering that technical 
assistance. They also allow for the use of an administrative 
level district employee to assist with paperwork, thus freeing 
up time to provide technical expertise to focus on field visits 
and delivery of that technical assistance.
    NACD feels that this flexibility for the States to develop 
agreements that meet the local and State demands is very 
important. Whether it is an additional technical staff or 
finding ways to utilize time and financial resources more 
efficiently with administrative personnel working in the 
office, so that the technical expertise NRCS has--professionals 
can work in the field with landowners.
    In some districts, this 50/50 match has been a barrier in 
participation due to the lack of district funds. NACD continues 
to work with the districts to identify Federal sources for 
funding for their portion of that match to make that system 
work.
    The expertise of the district and NRCS employees is a very 
important compliment to the private sector. Conservation 
districts' longstanding relationship with NRCS and with the 
farming community at the local level puts us in a very unique 
position to deliver technical assistance through both the TSP 
initiative and other avenues in that expertise.
    Conservation districts have developed relationships with 
landowners and are looked upon as a trusted source of 
information and assistance. And, as you know, this relationship 
is very vital in the farming communities, that local-led 
process. The data from across the country for fiscal year 2005 
shows that TSP dollars are approximately $53 million. 
Conservation districts received about nine percent of those 
funds delivered in their efforts of technical assistance.
    According to USDA, the majority, 62 percent of those funds 
for fiscal year 2005, went to private entities. And the 
majority of this system provided for us was under nutrient 
management, under those dollars. The majority of funds for TSPs 
come through environmental quality incentive programs, followed 
by the conservation reserve program, and then conservation 
technical assistance.
    States that meet TSP goals developed by NRCS, USDA, and the 
Office of Management and Budget, by contacting directly with 
private entities through producer-acquired contracts and 
through contribution agreements.
    In Indiana, we utilize a variety of approaches through the 
TSP initiative. The TSP has grown in the State of Indiana, from 
600,000 to about a million in the last four years. In 2003, the 
State focused on nutrient management, pest management, and 
comprehensive nutrient management plans this year, the first 
year that the TSP initiative was open to include additional 
practices, but predominantly focused on implement those EQIP 
contracts.
    Our utilization of the TSP funds in Indiana has been 50 
percent architect and engineering, 26 percent individual 
producer assistance from the TechReg, and 10 percent in 
contribution agreements, 6 percent in other agreements. Under 
the A&E category, the State can bundle work, such as the 
comprehensive nutrient plans, and contracts want businesses to 
do all those CNMPs in a State or in a region, based on the 
necessity.
    In Indiana, districts provide technical assistance support 
on engineering, and helping to check out the approved 
conservation practices. We believe that the success of the TSP 
initiative is driven by those overseeing and managing the 
program within the State, including State conservation and 
District conservationists. These individuals responsible for 
developing the program entering into the contribution 
agreement, outreach TSPs and overseeing and approving the plans 
and projects from these TSPs.
    This initiative from a national level to be implemented by 
the States and we understand that it has not always been a 
smooth implementation. However, with the demand for technical 
assistance continuing to grow, and we believe that there is a 
role in the private third party vendors. Districts and NRCS 
providing assistance to landowners to undertake these 
additional conservation practices on the land.
    The future success of this program depends on its 
flexibility in addressing the specific demands each State may 
have, including staffing needs, resource concerns, and most of 
all, the local conservation priorities.
    Thank you, Mr. Chairman and Committee, for an opportunity 
to present this to you.
    [The prepared statement of Mr. Schmidt can be found on page 
45 in the appendix.]
    Senator Crapo. Thank you, Mr. Schmidt.
    Mr. Goad.

  STATEMENT OF DAVID GOAD, DEPUTY DIRECTOR, ARKANSAS GAME AND 
                        FISH COMMISSION

    Mr. Goad. Good morning, Mr. Chairman, Senator Lincoln. It 
is an honor and a privilege to come before you today.
    Mr. Chairman, let me start by thanking you and Senator 
Lincoln for your longstanding interest in and support for fish 
and wildlife conservation, and for the role that State fish and 
wildlife agencies play in that endeavor. We look forward to 
continuing to work with you as the next Farm Bill moves through 
the legislative process.
    I come before you today representing this great State of 
Arkansas, as well as the position of the Association of Fish 
and Wildlife Agencies, of which all 50 States are members. I am 
glad to begin by giving you a little background about myself so 
that you might have more confidence in my testimony.
    Although a wildlife biologist by degree and profession, I 
am a farmer at heart. My family moved to central Arkansas from 
Kentucky in the late 1800s. My great-grandfather purchased a 
sizable tract of land on the banks of the White River from the 
Iron Mountain Railroad. We have been Arkansas farmers ever 
since. So, I truly know the need for farm conservation 
programs.
    Mr. Chairman, the mission of the Arkansas Game and Fish 
Commission is to wisely manage all the fish and wildlife 
resources of Arkansas, while providing maximum enjoyment for 
the people.
    Until the 1996 Farm Bill made wildlife habitat co-equal to 
soil and water, the majority of the work that we performed was 
habitat and population management on public land. With 
approximately 89 percent of Arkansas in private ownership, we 
were overjoyed with the opportunity to get a chance to help 
manage habitat on private land, thus, having the ability to 
affect wildlife populations, as well.
    It appeared that we might finally get to fully accomplish 
our mission. Prior to the availability of TSPs, the Arkansas 
Game and Fish Commission invested hundreds of thousands of 
dollars to cost share with the USDA to put habitat on the 
ground at no expense to the landowner.
    Furthermore, for a two-year period, we paid the salaries of 
five temporary biologists that were house in NRCS offices 
around the State to provide wildlife and technical assistance. 
And, as you referred to earlier, Mr. Chairman, with the 2002 
legislation, NRCS was charged with newly funded programs, along 
with increased funding for existing programs.
    Knowing that NRCS has few trained wildlife biologists and 
that we were longtime conservation partners with them, 
financially, as well as providing labor, it only stood to 
reason that the TSP provision would finally create the 
cooperative conservation partnership we were working so hard to 
obtain. It was our feeling that this would finally insure that 
wildlife needs would be adequately considered and integrated 
into all Farm Bill programs.
    Missouri and Kentucky are a couple of States that have 
successful TSP agreements. These States are cost sharing with 
NRCS and have hired additional staff to provide technical 
assistance on multiple Farm Bill programs. And, as Ms. Braasch 
referred, I have just recently learned of a successful 
agreement in Idaho, Mr. Chairman. Three agency biologists are 
now working in NRCS offices to provide technical assistance and 
the results, according to Mr. Hubeck, have been great. 
Arkansas, as well as other States, would love to have similar 
opportunities.
    All these agreements may be successful. These State 
agencies are taking a risk, since the NRCS is only willing or 
able to sign one-year agreements. Most States are going to be 
reluctant to commit funding and hire additional biologists 
without a longer commitment and adequate funding from NRCS.
    Furthermore, it is not reasonable to expect States with 
limited staffing resources to put aside State mandated work to 
accomplish Federal work.
    Mr. Chairman, I do realize that part of the intent of 
Congress was to involve the private sector and us. Certainly, I 
am not disagreeing with that concept. However, I guess, being a 
little selfish, I would say that they cannot possibly work with 
the effectiveness and the efficiency as our biologists can.
    Furthermore, we will cost share that program, thus 
leveraging taxpayer dollars. And I do not think that probably 
happens with the private sector.
    Mr. Chairman, Senator Lincoln, we owe to the American 
public to provide landowners with quality conservation 
technical support to insure the viability of farming and 
ranching for future generations, which includes keeping soil on 
the far, improving water quality, and restoring wildlife 
populations.
    In closing, I would respectfully request your consideration 
of two things. Require TSP agreements with State fish and 
wildlife agencies to effectively incorporate wildlife 
conservation into all conservation planning and USDA programs 
and fund TSP at an adequate level necessary to fully administer 
these programs through multi-year agreements that will allow 
State agencies to hire additional staff.
    And I believe this cooperative conservation partnership 
with USDA can provide a quality product that insures wildlife 
conservation as truly a co-equal objective of conservation 
planning and program implementation.
    Thank you very much for the opportunity to share our 
perspective with you.
    [The prepared statement of Mr. Goad can be found on page 41 
in the appendix.]
    Senator Crapo. Thank you very much, Mr. Goad.
    Mr. Wolf.

 STATEMENT OF DOUG WOLF, MEMBER OF THE BOARD OF DIRECTORS FOR 
              THE NATIONAL PORK PRODUCERS COUNCIL

    Mr. Wolf. Good morning, Chairman Crapo and Senator Lincoln. 
Good morning to members of the Committee and to your staff.
    I am Doug Wolf, a pork producer from Lancaster, Wisconsin. 
I am here this morning representing the U.S. Pork Industry. I 
am a proud member of the National Pork Producers Council and I 
serve on the board, and on the 2007 Farm Bill Task Force. My 
wife, son, daughter, and I own and operate a farrow to finish 
hog operation. We raise corn, soy beans, hay, and have 
permanent pasture. NPPC's written comments review in detail my 
experience with the technical service providers and NRCSs 
technical assistance staff, as well as NPPC's national TSP 
policy observations. I will briefly summarize my written 
comments for you. Relative to our farm, we have a conservation 
plan for our operation. Through a combination of conservation 
measures, we are keeping erosion at or below T. We are 
following a precise ergonomic plan for our manure. We have done 
an on-farm assessment environmental review, and we now have a 
comprehensive nutrient management plan that was prepared by 
TSP.
    Our experience with the local NRCS technical assistance 
staff has been uniformly positive. They have always been timely 
in their work, competent, effective, and helpful. They have 
worked with me to find ways to adapt their programs so they can 
work on our farm, and they have never created expectations that 
were not able to be met.
    Despite this record of strength of the NRCS technical 
assistance delivery system and their staff, there is, in my 
mind, a clear need for technical service providers. Farmers 
need help with certain environmental practices and the NRCS is 
either not trained to do this work or simply does not have time 
to get it done.
    The answer to this in our State is TSPs, in my view. 
Relative to my use of a private sector TSP to prepare our farm 
CNMP, the process worked. But if I could have changed anything, 
I would have wanted NRCS to have retained a TSP to do several 
CNMPs for several growers. I would have had far less paperwork 
and process to manage and oversee, and could have focused on 
conservation instead.
    If NRCS was managing the TSP directly, it would have been 
more efficient for me and, I suspect, NRCS and the TSP. 
Relative to the national TSP program, NPPC offers the following 
observations.
    First, NPPC believes that the more NRCS embraces the use of 
TSPs, the more the country will benefit from NRCSs particularly 
sound approach to natural resource conservation.
    Second, NPPC believes that far more farmers would use TSPs 
if NRCS contract with TSPs, rather than having farmers serve as 
the middleman. And we believe the process will, in many 
instances, be more efficient.
    Third, farmers are often confused by what NRCS's not to 
exceed payment rates mean and how they are to be used. Many 
farmers hear not to exceed, and they think it means the 
prevailing market rate and do not want to pay the TSP more than 
this. NRCS needs to clear this up.
    On behalf of the National Pork Producers Council and the 
pork producers we represent and support, thank you for your 
continued and focused attention on technical service providers. 
The nation's pork producers are grateful for your leadership on 
these and other important issues for us, and look forward with 
you and this Committee. I would be happy to answer any 
questions.
    Thank you.
    [The prepared statement of Mr. Wolf can be found on page 50 
in the appendix.]
    Senator Crapo. Thank you very much, Mr. Wolf.
    I want to start out with just a general question to the 
entire panel. I take it from listening to your testimony and 
reading your prepared testimony that each of believe the TSP 
program is a good program. There are things that could be fixed 
about it and so forth, but that it is a program that we ought 
to sustain and improve.
    Many have raised concerns that we need to adjust the NTE 
rates for compensating TSPs, so that we can have a more robust 
system. The question that arises there is, given the difficult 
Federal budget situation that we have, if we have a limited 
amount of dollars to go to the TSP program--and whatever the 
amount of dollars that we end up with, it will be limited. It 
will be a finite number. If we increase the NTE rates, then 
will that reduce the availability of TSP services to a broader 
number of producers, do you feel that that is a concern?
    Anybody want to jump in on that?
    Mr. Chapin. I will make a comment, Mr. Chairman.
    I think the best way to approach that or alleviate that 
concern is for the agency to put out requests for proposals and 
contract out directly with consulting foresters or whatever 
expertise that they need and to try to package several programs 
together into one contract. And also, if possible, make multi-
year contracts. That way you will get a better rate and the 
rate will be, you know, it will be an open bidding process 
where it will be the actual market rate and it will have to be 
competitive.
    I do not think that it would actually raise the cost. It 
would probably reduce the cost.
    Senator Crapo. So, the idea there is to, basically, try to 
achieve some economies of scale by getting more producers 
satisfied by the same project.
    Mr. Chapin. Exactly. And try to make it more of a long-term 
agreement, rather than just project by project.
    Senator Crapo. Any others want to jump in on that question 
before I go on?
    I will stick with you for a minute, Mr. Chapin. In your 
testimony, you indicated that there does need to be a greater 
capacity to deliver technical assistance to the forest 
landowner. What do you feel is the limiting factor, or what is 
limiting the capacity to deliver technical assistance to the 
forest landowner right now?
    Mr. Chapin. One thing is lack of knowledge of the forest 
landowner, or the producer, as the agricultural people call 
them. We call them the forest landowner. Most forest landowners 
do not know that that option is available to them.
    I think the other one is probably the agency feelings that 
they can do the job themselves. At least, in northern 
California they do not seem to be aggressive in letting the 
landowners know that there is the option to hire a consulting 
forester to prepare management plans or conservation plans and 
to oversee their projects.
    It is partly information and education, and partly just an 
institutional thing with the agency.
    Senator Crapo. Thank you.
    Mr. Schmidt, as you stated in your submitted testimony, the 
NRCS certifies TSPs in 42 different technical service 
categories, and there are more than 2,500--I heard 2,100 in the 
earlier testimony--on the TechReg. In your experience--and you 
heard, I assume, Sara Braaschs response to me on this general 
issue--in your experience, are there any areas of technical 
expertise in which certified TSPs are not available? Do we have 
gaps in the TSP availability?
    Mr. Schmidt. Through my communication, Mr. Chairman, there 
are some gaps because, when you look at the tech web--and a 
couple of producers have shared with me that not always, as Ms. 
Braasch indicated, is their particular expertise listed under 
that TechReg identification.
    So, in our part of the country, in the Midwest, a lot of 
private individuals, we call them CCAs, certified crop 
advisors, that work for the private sector are not listed on 
that web, but have done a great number of those, especially the 
nutrient management plan, scenarios. So, from the producer's 
standpoint and the district's standpoint, sometimes those local 
entities that are qualified have not, because of some 
inassurance of the continuation of that program and, in some 
cases, just the payment schedule that we do through the Federal 
agency scenario, have not stepped up and offered their services 
to that scenario.
    So, I am not so sure that, on an extended plan--
futuristic--we have heard the term ``multi-year contracts,'' 
Mr. Chairman, spoke of. There are more entities out there, but, 
by the same token, as you asked the question about the rate, 
the scheduled payment, and are we economical and competitive--
that onset, that there would not be more individuals available 
to do that work, but have not necessarily addressed and 
utilized their expertise to address this need that we are 
seeing in helping build those conservation plans throughout the 
country.
    Senator Crapo. All right. Thank you.
    Mr. Goad, I have some questions for you, but I am going to 
let Senator Lincoln have the first shot at you.
    So, I am going to move on to Mr. Wolf, here.
    Mr. Wolf, you indicated in your submitted testimony that 
the NRCS could reach a significantly broader population of 
farmers with site-specific soil-based models of supporting 
conservation and environment work, if it can adapt itself to 
better use the TSPs.
    In your opinion, what is the most significant limiting 
factor for NRCS's ability to use the TSPs?
    Mr. Wolf. Well, I guess in my personal opinion--and I heard 
today that, in Wisconsin, in the 1980s, they started some of 
these TSP-type projects. But, in my own personal project that 
we have done this year with the new CNMP, it seemed like it was 
a new operating style with our local office. They were having 
some new problems getting used to what they were doing, how the 
TSP project worked. So, I think there was just some time--it is 
going to take time for them to get used to.
    The other, second point that I might mention, the agency 
itself would maybe question their traditional role and jobs. 
This has been their job traditionally, and, now, why is it 
getting placed out? We can understand through downsizing and 
everything else they do not have the time, maybe some time for 
the training to do it. I was told not to mention it, but maybe 
a job security-type of concern.
    Senator Crapo. And in your testimony just now, you 
indicated that you felt that it would be better, if I 
understood you correctly, if the NRCS directly contracted with 
the TSPs rather than having the producer or the farmer be the 
middleman.
    And I understand that it can be done both ways. I was under 
the assumption that I was sort of the choice of the producer as 
to whether they wanted to do the contracting or have NRCS do 
the contracting, itself. Is that not the case?
    Mr. Wolf. I cannot answer that.
    Senator Crapo. Does anybody here know the answer to that 
question?
    Mr. Chapin. My understanding, at least with the local 
conservationists that I have spoken to, it is not the case. The 
agency makes the decision whether they want to contract it out 
themselves or the landowner can hire the technical service 
providers.
    Senator Crapo. So, if the agency chooses not to do the 
contracting, then the landowner is left with no option.
    Mr. Chapin. That is right.
    And the other point that I was not aware of until recently 
is that the producer or the landowner has to identify the fact 
that he wants to use a technical service providers at the very 
beginning of the process. Once they get into the process, it is 
very difficult to say, ``I have decided that I want to include 
a technical service provider.''
    Senator Crapo. And was it you, Mr. Chapin, who said that 
they are not told that the TSP process is available?
    Mr. Chapin. Correct.
    Senator Crapo. At least in the forestry community, they are 
not.
    Okay. That clears that up for me.
    Senator Lincoln, do you have any questions?
    Senator Lincoln. I have a few questions. Thank you Mr. 
Chairman.
    Again, Mr. Goad, thank you for being here. We appreciate 
it. I want to welcome you to the Senate Agriculture's Committee 
Subcommittee on Forestry Conservation and Rural Revitalization. 
We appreciate your tireless work with Arkansas Game and Fish 
Commission, and particularly your willingness to make the trip 
up here.
    Through your testimony, and certainly our experience in the 
State, Arkansas Game and Fish is a tremendously valuable 
partner in helping landowners meet conservation goals, whether 
it is WRP, CRP, WHIP, EQIP, any of them. We know that that is a 
valuable, valuable partnership.
    Just a couple of questions I would leave out there for you. 
One of those programs that is especially near and dear to us is 
WRP, the wetlands reserve program. And, as you know, that 
program is extremely popular in Arkansas. I think we rank first 
in enrolled acres nationwide. We also have the highest number 
of unfunded applications.
    The first thing would be, does the TSP initiative have a 
role to play in addressing that backlog, in terms of 
expedition, moving things forward more quickly, making it more 
accessible? And, if so, in your view, how might that effort be 
more successful?
    And also, I would like for you to elaborate on the specific 
experience that the Arkansas Game and Fish has had working with 
NRCS in the State to approve those TSP agreements that we have 
been talking about here this morning; what opportunities, what 
obstacles, other concerns that you have experienced in this 
regard in working with NRCS to approve those TSP agreements.
    Mr. Goad. First, I guess I would start with WRP.
    There are three things about WRP--you are correct. We have 
enrolled over 200,000 acres in Arkansas, and we are very proud 
of that. And we do have an approximate backlog of 80,000 acres, 
approximately 350 landowners that we would love to get that 
habitat on the ground, as well. Three things that I believe 
really concern my Commission, our agency, and I think the 
public.
    The first is that there has been a change in the appraisal 
process, how the appraisals are valued. For example, before, I 
believe, the process was changed, whatever the property market 
value, appraisal was, then the landowner was made an offer for, 
say, perpetual easement. And States had caps, and Arkansas' cap 
was in the $700-725 range.
    Since that change has been made at the beginning of this 
calendar year--I am not sure exactly when it took place, we 
have not enrolled another acre in WRP in Arkansas. We do have a 
piece of property that we were trying to buy up over in western 
Arkansas that we know the offer was about $700-725 an acre, and 
we have yet to get the appraisal back. So, we do not know what 
the offer is going to be, but our assumption is that it is 
going to be quite a bit less.
    There are three things that make up this appraisal process. 
To take the lesser of the three, one is the value of the 
property prior to the easement taken away from the value of the 
property with the easement, the geographical value of the land, 
and maybe the farmer has the option to make an offer. So, we 
believe it is going to be much less.
    And there is one example that I can tell you about in 
Oklahoma where there was 280 acres enrolled and, prior to this 
change, and I guess the money was not available; the price of 
the property was $126,000. The landowner was offered $80,000 
for the perpetual easement. After the new appraisal, his offer 
was $46,000. So, it is a significant difference, about 36.5 
percent. I do not believe the landowner would accept it, and I 
do not think you would. I know I would not.
    Again, the other issue is the large backlog, and then, 
lastly, the continued lack of funding for technical assistance, 
not only for enrollment, but for restoration on those projects.
    Will the TSP program help that? Probably not. It is going 
to have to take, maybe, a policy change to go back to the 
appraisal process that we had before and adequate funding for 
enrollment and restoration.
    Your question about our experience with agreements. We have 
had a couple of agreements with NRCS. We do not have any now. 
The first two, I have to admit, went not as well as we would 
like for them to have been.
    As you can see from my testimony, we have been a partner 
for a long time, actually, since 1986, when we actually created 
a position of Farm Bill coordinator. We have contributed 
hundreds of thousands of dollars out of our pocket to put 
habitat on the ground.
    So, when the TSP program became available, we felt like it 
was a golden opportunity for us. The agreements that we signed 
were inclusive of WRP, CRP, WHIP, EQIP. When we began to submit 
invoices, which included some CRP and EQIP hours, we were told 
that some mess up had caused us not to be reimbursed for 
anything for WHIP hours.
    So, we did leave some dollars on the table. I think it 
frustrated NRCS. We understood that State NRCSs were being 
chastised for not spending all the money. So, they have been 
somewhat reluctant to enter into any agreements with us since 
then.
    We have been, as of late, talking to the State 
conservationists and, hopefully, we got all that taken care of, 
and we would love to enter into a long-term agreement if we 
could, if that is possible, and hire additional staff.
    And again, I think a point that needs to be made, and I 
think you all understand, is that we cost share those positions 
and taxpayer dollars are leveraged and we get more habitat on 
the ground for the taxpayer's dollar.
    Senator Lincoln. Thank you.
    Just one last question, Mr. Schmidt.
    Many of your fellow panelists, and your testimony, cites 
concerns about the existing NTE rate for TSP services. You 
referenced that, in some instances, the smaller projects do not 
have the NTE reimbursement rates that make the project of value 
to private business to engage in. Is there anything you can 
elaborate on that concern? Maybe you could provide an example 
for the Committee of where it has been a problem, or something 
that you have noticed.
    Mr. Schmidt. In a couple of situations--and, again, I think 
a lot of it is based on the demand. In some cases, one case in 
particular, where the particular watershed was included under 
the new TSP program. And, in that watershed, the private 
retailer had worked with a lot of those producers. They had a 
lot of the records.
    So, they did not have a lot of additional efforts to make 
to help those individuals fill out the paperwork, which would 
have been similar to a CNMP or any other contract. Had they had 
to go on their own, because of the--and we are going back to 
Mr. Chairman's question on, do we have the adequate fulfillment 
out there for the needs under this TSP provider program. This 
individual shared with me that, had she been a private entity 
that her business could not have withstood the timeframe of 
writing the program, the farmer submitting the contract, and 
then the reimbursement, and the farmer saying, ``I cannot pay 
you until I get paid.'' The fact that she worked for a 
retailer; it was part of her retailer agreement that they would 
have done that for their clients. So, when you are looking at, 
is the ability out there to do that? I think that is a lot of 
what you are seeing, is, if we are going to fulfill the need, 
there is somewhat of a hesitation by those individuals that are 
sole proprietors to do that on their own because of the drag in 
the schedule, basically, the rate of the time committed, unless 
it is a multi-year agreement, from that scenario.
    From a cost view, going back to Mr. Chapin's comment, you 
know, do we combine that to make it more economical and 
lucrative for the private sector individuals to provide the 
expertise? And a lot of that is true, too, is when those 
individuals that have, as Mr. Chairman related, the number of 
categories in that conservation agreement thing, the 
individuals that had the expertise to fulfill that whole 
scenario or can just, maybe, use their efficiencies to provide 
one component of that contract need.
    Senator Lincoln. Well, Mr. Chairman, I appreciate it. I 
apologize that I have to excuse myself, but I do want to say 
that I think I have heard almost everyone here on this panel 
mention that an extended amount of time would be enormously 
productive, in terms of cost and ability to negotiate things.
    So, hopefully, we can work with you all further in looking 
at how some of those multiple year type agreements would be 
more advantageous to all of us, in terms of cost and, 
certainly, the final product of what we are getting.
    I have a few last questions that I will submit for the 
record, if you do not mind. Again, I thank our panelists for 
being here. We do appreciate it and, as the Chairman and I have 
moved forward in working together on the Farm Bill, we will be 
looking back to you for more suggestions and certainly 
recommendations.
    Thank you, Mr. Chairman.
    Senator Crapo. Certainly. Thank you.
    I will tell you and everyone here, now, we are going to 
keep the record open for five days, and you will probably get 
some written questions from Senator Lincoln and myself and some 
of the other Senators who are not able to be here. So, we would 
encourage you to respond to those.
    Senator Lincoln. Thank you.
    Senator Crapo. Thank you.
    I just have a few more questions, myself.
    Mr. Schmidt, I will start with you. You indicated that, in 
some districts, the requirement for a 50/50 match has been a 
barrier to participation due to the lack of district funds. And 
also that it is expected that the NRCS will only be able to 
fund about half of the agreements that were put forward to 
deliver technical assistance.
    The question I have is, when that happens, does the service 
simply not get provided, or does it then get picked up by the 
private sector or an NGO, or does the NRCS itself provide the 
technical assistance?
    Mr. Schmidt. I think, in all fairness, Mr. Chairman, in 
some cases, when we talk about backlog of activity and, in some 
cases, that is primarily what we are saying. We make every 
opportunity in every case to make sure that the program is 
implemented with the customers. But I cannot sit here and tell 
you that we do not have a waiting list of helping those 
producers fulfill their opportunities.
    And that 50/50 match from the district level--and, in a lot 
of cases, the districts have received some State funding and 
they have received some county funding and, in some cases, they 
use their technical expertise to generate funding on their own. 
But, as both State dollars, in some cases, the budgets have 
shrunk and in county government, budgets have shrunk.
    There is a continuing effort for those districts to be able 
to generate that 50/50 match on their own that if, because of 
the limited staffing from NRCS in some cases and if the 
district cannot pick up that lapse in service at the local 
level that we have advertised for TSPs to come in and 
supplement that scenario.
    And then, as you indicated, what Federal dollars may be 
available has probably been one of the limiting factors that we 
can get more of the private sector to engage in that business 
opportunity, for fear that it will not stay there or it will 
just be a limited opportunity. But it truly is a concern we 
have of getting that technical assistance in the field to make 
sure that we do not have an opportunity for a producer to be 
involved in a program when we do not have the staffing to 
fulfill that need to take care of that.
    Senator Crapo. Well, thank you very much.
    And, Mr. Goad, I will come to you now. I noted in your 
testimony that you indicated that you feel that we need to be 
more effective in integrating the wildlife concerns into our 
farm programs, just by way of example.
    First of all, I agree with. I know Senator Lincoln does, as 
well. She and I are both working in another context on some 
reforms to the Endangered Species Act, which would help to 
facilitate the integration of our conservation efforts under 
the Farm Bill with our recovery efforts under the Endangered 
Species Act. We always run into issues, there, but it is a very 
important objective, and I wanted to just let you know that I 
agree with that objective.
    The question that I want to raise with you, and I really 
would like to have the entire panel feel free to engage on 
this, is it has been mentioned by several of you, Mr. Goad, in 
particular, that these multi-year agreements could be very 
helpful.
    I assume you all heard the testimony of Sara Braasch, which 
was that the major limiting factor is the fact that both 
Congress and most State legislatures operate on an annual 
appropriations process. This is an issue, by the way, that we 
face in all kinds of different arenas, where the inability to 
engage in long-term contracting restricts our ability to be 
economically efficient in the delivery of services that we want 
to try to provide. And it is one which many of us struggle with 
here at the Federal level, in terms of trying to see how we can 
engage in an appropriations process that will allow us to have 
the long-term contracting capacity.
    So, the question I have is to the whole panel, and I will 
start with you, Mr. Goad, as to whether you can think of some 
creative ways that we could resolve that issue and achieve the 
kind of long-term arrangements that would still be able to be 
addressed with our annual appropriations-type processes.
    Mr. Goad. That is a great question, Mr. Chairman, and it is 
going to be very difficult, I think, to answer adequately.
    However, I know in our State budget, it is a biannual 
budget. The legislature approves it for two years. And, quite 
often, we can write multi-year contracts for more than two 
years, with the statement I believe, that Ms. Braasch added, 
that it is dependent upon funding and approval in the years to 
come. So, that is one alternative.
    I believe that it would certainly make most States feel 
better. And you are correct; most States have to have 
legislative approval. The State legislatures approve not only 
their budgets, but extra staff. So, it is very difficult, but 
it would make a huge difference if we could somehow accomplish 
this.
    Senator Crapo. Anybody else want to jump in on this?
    Mr. Chapin.
    Mr. Chapin. Mr. Chairman, I have some experience.
    My firm has a five-year contract right now with the U.S. 
Forest Service, which is a Federal agency, as you know. It is a 
fairly new thing. I think they first started doing it about two 
years ago, but the way they work it is they have a request for 
proposal for providing forestry services on national forest 
land to prepare timber sales and mark and cruise timber and 
whatever it is that they think that they are going to need have 
done.
    All consulting firms are offered the opportunity to bid on 
it, and then they select four or five firms in the whole State 
that they feel are the most qualified and have the best cost 
proposal. And then, in turn, we received a five-year agreement 
to do contract work on forest service land based on an annual 
need. It is kind of a call as needed contract, and based on a 
work order.
    So, every year they will give us or some other qualifying 
firm a work order to do a certain amount of work, but that is 
based on our annual budget. That work order is only for the 
fiscal year. But the contract itself is a five-year contract, 
but each work project is a one-year project, or less.
    Senator Crapo. So, the agency would be able to, if it didnt 
have a budget in a particular year, it would be able to solve 
that by not calling for the work.
    Mr. Schmidt. That is right. They would not give out any 
work orders. So, it is based on the funds being available and 
based on the need for the work to be done by a consultant.
    Senator Crapo. I can see how that would work.
    And I am also aware--I mean, we are all aware--that in the 
Defense Department they have multiple year contracts, and in 
the Department of Energy they have--I am sure that in every 
department we could come up with examples. I am going to have 
to go check into this and see how it works.
    I know that in some that I am more familiar with, there 
always is that contingency as to whether or not the Federal 
Government will appropriate on a multiple year basis to fulfill 
the contracts, but it would seem to me that we could get around 
that. I mean, not get around it, but that we could achieve the 
objective of multiple year contracting, even facing that 
potential risk of the appropriations process.
    Anybody else want to jump in on that question before we go 
forward?
    Mr. Wolf.
    Mr. Wolf. If I could, the EQIP program oftentimes runs in 
multi-year terms.
    Senator Crapo. That is right.
    Mr. Wolf. Maybe some of those moneys could be used.
    Senator Crapo. So, there is another good example, right in 
the conservation programs themselves of how we can achieve it.
    So, it seems to me that this, as well as a number of the 
other suggestions that have been made here today are very, very 
helpful and will be utilized by us as we move forward.
    I just had one more area that I wanted to get into--
actually, I want to get back to it. It is that question of 
whether the direct contracting by the NRCS is preferable to 
having the producer do the contracting and then pay the TSP 
provider themselves.
    Does everybody on the panel agree that the preferred 
approach would be to have the NRCS do the direct contracting?
    Mr. Chapin. Yes. I agree, Mr. Chairman.
    I believe that the agency believes that that is the best 
approach, also.
    Senator Crapo. Anybody disagree with that?
    That being the case, does anybody want to speculate or jump 
in on why it is that the agency does not promote it more?
    The testimony that we have had today is that it is not very 
well promoted to the producers who come in and seek the 
services.
    Mr. Schmidt. Mr. Chairman, if I may?
    Senator Crapo. Yes. Mr. Schmidt.
    Mr. Schmidt. I think may be of the apprehension, as you 
know as well as I do, that as we have had that conversation 
here this morning, we do not have the availability of 
assistance at the local level for technical assistance.
    And, from a personal opinion, if I know my time is 
allotted, the last thing I want to do is market more of my 
skills then I am going to have more people dial on the phone to 
talk to me. And that has been a fear.
    In my own district, you know, we have tried to train some 
of our part-time people to answer some of the questions that we 
can utilize that technical staff to get the technical work 
done, as Mr. Wolf shared, you know, some of those needs might 
be.
    And I think if there is a reason why NRCS is not marketing 
that opportunity, it is because we know of the limited time we 
have available to actually get the work done. And the sad part 
is that you cannot be PR and then get the handwriting done at 
the same time.
    So, from that defense of NRCS--but at the same time, I 
think that the local community would appreciate knowing that we 
had the expertise locally, because in more cases it is a lot 
easier to deal with an entity locally, than it is to do, as you 
questioned earlier, you know, how would I communicate and work 
with somebody that is eight, or nine, or ten States away.
    Senator Crapo. Right.
    Mr. Schmidt. That does not mean they do not have somebody 
in your local level, but it is just comfort level to deal 
locally, knowing the expertise--if you have a question, a quick 
visit, that kind of scenario.
    Senator Crapo. All right. Anybody else?
    I just have one last question, and frankly I think this 
question is probably for the NRCS, so I will submit it to them. 
But I wanted to ask it, just in case somebody knows the answer. 
Does anybody know the proportion of contracts that are done 
directly versus the proportion of contracts that are done 
through the producers?
    I suspected we would not know that, but we will get that 
information out of the NRCS.
    Well, I want to thank this panel for coming forward. Both 
your written and your oral testimony, today, have been very, 
very helpful to this panel. Obviously, this is a very important 
part of our deliberation as we develop the next Farm Bill. And 
the conservation title itself is going to be, again, one of the 
most significant and key parts of the Farm Bill. This 
Subcommittee is going to have a major role in crafting that, so 
your advice and providing of your expertise to us is very 
helpful and appreciated.
    If you feel that you would like to supplement whatever you 
have had an opportunity to say today with further ideas or 
thoughts, please do not hesitate to do so. And, as I indicated 
previously, the record is going to be held open for five days, 
so you may get some questions in writing from other members of 
the Committee or Senator Lincoln and myself, as well. I would 
encourage you to respond to those fully, as well.
    With that, this Committee is adjourned.
    [Whereupon, at 11:34 a.m., the Subcommittee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             July 27, 2006



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 30432.001

[GRAPHIC] [TIFF OMITTED] 30432.002

[GRAPHIC] [TIFF OMITTED] 30432.003

[GRAPHIC] [TIFF OMITTED] 30432.004

[GRAPHIC] [TIFF OMITTED] 30432.005

[GRAPHIC] [TIFF OMITTED] 30432.006

[GRAPHIC] [TIFF OMITTED] 30432.007

[GRAPHIC] [TIFF OMITTED] 30432.008

[GRAPHIC] [TIFF OMITTED] 30432.009

[GRAPHIC] [TIFF OMITTED] 30432.010

[GRAPHIC] [TIFF OMITTED] 30432.011

[GRAPHIC] [TIFF OMITTED] 30432.012

[GRAPHIC] [TIFF OMITTED] 30432.013

[GRAPHIC] [TIFF OMITTED] 30432.014

[GRAPHIC] [TIFF OMITTED] 30432.015

[GRAPHIC] [TIFF OMITTED] 30432.016

[GRAPHIC] [TIFF OMITTED] 30432.017

[GRAPHIC] [TIFF OMITTED] 30432.018

[GRAPHIC] [TIFF OMITTED] 30432.019

[GRAPHIC] [TIFF OMITTED] 30432.020

[GRAPHIC] [TIFF OMITTED] 30432.021

[GRAPHIC] [TIFF OMITTED] 30432.022

[GRAPHIC] [TIFF OMITTED] 30432.023

[GRAPHIC] [TIFF OMITTED] 30432.024

[GRAPHIC] [TIFF OMITTED] 30432.025

[GRAPHIC] [TIFF OMITTED] 30432.026

[GRAPHIC] [TIFF OMITTED] 30432.027

[GRAPHIC] [TIFF OMITTED] 30432.028

[GRAPHIC] [TIFF OMITTED] 30432.029

[GRAPHIC] [TIFF OMITTED] 30432.030

[GRAPHIC] [TIFF OMITTED] 30432.031

                                 <all>

</pre></body></html>
